                    United States Department of the Interior
                               OFFICE OF INSPECTOR GEN ERAL
                                    Washington, DC 20240



Memorandum                                                                          JA 2 8 20lL
To:            David Hayes
               Deputy Secretary

From:          Mary L. Kendall
               Acting Inspector Genera

Subject:       Report of Investigation
               George Wright Society, Case No. PJ-09-0443-J

       The Office ofInspector General (OIG) recently concluded an investigation into a 2004
cooperative agreement between the National Park Service (NPS) and the George Wright Society
(GWS) . The cooperative agreement was initially for $35,000 in support of two separate
conferences. In the span of just five years, the cooperative agreement was modified 17 times and
increased to $808,055.

        Our investigation determined that there was a systemic lack of oversight by NPS
regarding this cooperative agreement. The manner in which the cooperative agreement was used
also suggests that it was not the correct vehicle for most of the awards. Finally, six of the eleven
members who serve on the GWS Board of Directors are also employed by NPS. Yet, they had
significant input into several of the modifications, which could amount to a violation of the
conflict of interest statute and the Federal Acquisition Regulations.

        We have sent a detailed Management Advisory to NPS regarding the results of our
investigation (copy attached). We have requested a written response to this office within 90
days advising us of the results of NPS' review and actions taken. Also, enclosed is an
Investigative Accountability form ; please complete the form and return it with the written
response. Should you have any questions or need additional information concerning this matter,
you may contact me at (202) 208-5745.

Attachment
X




        Investigative Report
                                          George Wright Society


                                         Report Date: January 27, 2010
                                      Date Posted to Web: February 4, 2010




This report contains information that has been redacted pursuant to 5 U.S.C. §§ 552(b)(6) and (b)(7)(C) of the Freedom of
  Information Act. Supporting documentation for this report may be obtained by sending a written request to the OIG
                                             Freedom of Information Office.
X
                                                             RESULTS IN BRIEF

We initiated this investigation when we discovered, during the course of another investigation
(PI-09-0404-I), a cooperative agreement between the National Park Service (NPS) and the George
Wright Society (GWS) that had been modified 17 times and increased from $35,000 to $808,055 over
five years. Neither the NPS procurement file nor the GWS file contained the required reporting
documentation, and NPS provided virtually no oversight once funds were transferred to GWS. Finally,
NPS did not have “substantial involvement” in all of the efforts conducted by GWS, as required for
cooperative agreements.

We also determined that several of the modifications to this agreement appeared to meet a government
need, rather than a public need, which is the intended purpose of cooperative agreements. These
particular modifications, therefore, should not have been applied to this cooperative agreement but
instead should have been procured through a contract. Further we found that six of the eleven
members who serve on the GWS Board of Directors are employed by NPS, and had significant input
into several of the activities funded by the modifications, which could amount to a violation of the
conflict of interest statute.

                                                                BACKGROUND

According to the GWS website, it was founded in 1980 and “organized for the purpose of promoting
the application of knowledge, fostering communication, improving resource management, and
providing information to improve public understanding and appreciation of the basic purposes of
natural and cultural parks and equivalent reserves” (http://www.georgewright.org/). GWS is a
nonprofit organization with two employees: David Harmon, Executive Director, and Emily Dekker-
Fiala, Conference Coordinator and Bookkeeper. Harmon said that GWS has been working with DOI
since approximately 1982.

                                                   DETAILS OF INVESTIGATION

On May 8, 2009, we initiated this investigation when we discovered, during the course of another
investigation, a cooperative agreement between the National Park Service (NPS) and the George
Wright Society (GWS) that had been modified 17 times and increased from $35,000 to $808,055 over
5 years. Neither the NPS procurement file nor the GWS file contained the required reporting
documentation, and NPS provided virtually no oversight once funds were transferred to GWS. Finally,
NPS did not have “substantial involvement” in all of the efforts conducted by GWS, as required for
cooperative agreements.

The Cooperative Agreement

A cooperative agreement is a vehicle to be used when the principal purpose of a transaction is to
accomplish a public purpose; a cooperative agreement anticipates “substantial involvement” between
the executive agency and the recipient of the agreement 1 . The cooperative agreement between NPS
and GWS was established in 2004 to support two conferences. It has been modified and utilized by
NPS to provide funding to GWS 17 times over the past 5 years.

1
  43 CFR 12.911 states the following regarding the difference between public and government purposes: “The Federal Grant and Cooperative Agreement
Act (31 U.S.C. 6301-6308) governs the use of grants, cooperative agreements and contracts. A grant or cooperative agreement shall be used only when
the principal purpose of a transaction is to accomplish a public purpose of support or stimulation authorized by Federal statute. The statutory criterion for
choosing between grants and cooperative agreements is that for the latter ‘substantial involvement is expected between the executive agency and the State,
local government, or other recipient when carrying out the activity contemplated in the agreement.’ Contracts shall be used when the principal purpose is
acquisition of property or services for the direct benefit or use of the Federal Government.”

                                                                             1
During this investigation, we found that the agreement had generic objectives and a very broad
statement of work. The generic objectives from the cooperative agreement state that NPS and GWS
will work together “in conducting national and regional conferences, workshops, and training sessions,
as well as producing educational materials such as books, brochures, technical reports, Web sites,
compact discs, and other publications, on scientific and scholarly research, monitoring, and interpretive
activities related to the protection, management, and understanding of the natural, cultural, and
recreational resources of (1) the National Park System, (2) protective or recreational components of
other Federal lands such as those of the USDA-Forest Service, the Bureau of Land Management, and
the U.S. Fish and Wildlife Service and (3) state, local, and other similar areas as appropriate
elsewhere….” The broad tenets contained in the statement of work in the agreement state that GWS
will work with NPS on these objectives to develop conferences and educational materials “related to
protection, management, and understanding of natural, cultural, and recreation areas.”

We interviewed Dr. John Dennis, Deputy Chief Scientist, Natural Resource Stewardship & Science,
NPS, who was the Agreement Technical Representative (ATR) for the cooperative agreement with
GWS. He said his responsibilities included making sure that each modification “conform[ed] to the
umbrella mission” of the agreement. He said that the agreement “is available to anybody in the Park
Service to use.” Dennis stated that if the requested modification did not conform to the agreement, he
then either suggested that the agreement was not the “appropriate vehicle, or they could revamp what
they’re doing so that it would be appropriate.” He said if the modification conformed to the mission,
he drafted the modification request and then sent it to the contracting officer.

David Harmon, Executive Director of GWS, and Emily Dekker-Fiala, Conference Coordinator and
Bookkeeper for GWS, are the only two employees of GWS. Both Harmon and Dekker-Fiala told us
that GWS never initiated any of these modifications. Harmon said that NPS proposed the projects to
them, and if GWS thought they fit within the agreement and GWS’ organizational goals then they
came to a “mutually agreeable Statement of Work for a particular Modification.” Harmon said that
Dennis usually drafted the statement of work, and then GWS commented on it. When asked if NPS
ever approached GWS with a project they did not feel was in their line of work, Harmon said, “No…If
you take a look at the base agreement for the Cooperative Agreement, it talks about conferences, but
also publications, training, and educational projects. And that’s a pretty wide compass.”

Oversight/Documentation

Recipients of cooperative agreements are required to use an SF-269 (Financial Status Report) to report
the status of funds used for the intended projects or programs; the recipients are also required to submit
an SF-272 (Federal Cash Transaction Report) to monitor the funds when they receive cash advances
using an SF-270 (Request for Advance or Reimbursement) 2 . These reporting requirements were
contained in the cooperative agreement with GWS, which further stated that: “Reports and other
deliverable items shall be identified and may include, but not be restricted to: performance reports,
technical reports, oral briefings, photographs, charts, maps, and data.” A review of both the NPS file
for this cooperative agreement and GWS file, showed no evidence that any SF-269, SF-272, or
2
  43 CFR 12.952 states the following regarding financial reporting: “(1) SF-269 or SF-269A, Financial Status Report. (i)Each Federal awarding agency
will require recipients to use either the SF-269 or SF-269A to report the status of funds for all non-construction projects or programs. A Federal awarding
agency may, however, have the option of not requiring the SF-269 or SF-269A when the SF-270, Request for Advance or Reimbursement, or SF-272,
Report of Federal Cash Transactions, is determined to provide adequate information to meet its needs, except that a final SF-269 or SF-269A shall be
required at the completion of the project when the SF-270 is used only for advances. (iii)The Federal awarding agency shall determine the frequency of the
Financial Status Report for each project or program, considering the size and complexity of the particular project or program. However, the report shall
not be required more frequently than quarterly or less frequently than annually. A final report shall be required at the completion of the agreement. (2)
SF-272, Report of Federal Cash Transactions. (i)When funds are advanced to recipients, the Federal awarding agency shall require each recipient to
submit the SF-272 and, when necessary, its continuation sheet, SF-272a. The Federal awarding agency shall use this report to monitor cash advanced to
recipients and to obtain disbursement information for each agreement with the recipients. (iv)Recipients shall be required to submit not more than the
original and two copies of the SF-272 15 calendar days following the end of each quarter.” OMB Circular A-110 reiterates the aforementioned citations
from 43 CFR 12.




                                                                            2
performance reports were ever created or submitted.

When asked what reports he received from GWS, Dennis said: “[W]e used to get reports for the
biennial meetings, and they sat on the shelf and did nothing, so we’ve stopped getting reports. The
individual Modifications always identify who is the ATR for that Modification, and if it’s not I, then I
rely on whoever is the ATR to do whatever follow-up is needed. So I don’t. If I heard complaints,
then I would look into it, but I don’t think I’ve ever heard any complaints about what the George
Wright Society does. Mostly I’ve heard kudos, that they’re doing good things in our partnership.”

Dennis further stated that there was no need for a report because the work was either a conference or a
documentable product. When asked about the SF-269s or SF-272s, Dennis said that he was not
involved with those forms. He said that when GWS requested advance funding they went directly to
the contracting or procurement office. When asked if GWS provided him with any kind of
performance report, he said that he didn’t ask for them. When asked if there was monitoring of how
GWS spends their money accurately and correctly, Dennis said, “I do not do that, no….Again, I’m a
scientist…I’m not an accountant.” He said originally the contracting officer was Cynthia Adonoo in
Washington, D.C., later Beth Walden in Denver, CO, and now Sybil Winfield in Denver, CO.

Agent’s Note: This agreement file was passed around to different contracting officers, starting in 2004
when it was created by Cynthia Adonoo in Washington, D.C. All of the Washington Support Office
agreements were then transferred to the contracting office in Lakewood, CO, where it was first given
to Joelle Mascarenas until she left that office in 2007. It was then given to Walden and ultimately to
Winfield.

When we asked Mascarenas, Walden, and Winfield why the file for this agreement did not contain any
SF-269s or SF-272s, they all admitted that it should. Mascarenas said that for a time, two contract
employees were helping on this agreement; one was fired and one quit, and due to this there was a
filing problem. Regarding the missing documentation from the file, Lorna Gunning, Deputy Chief of
Contracting, Lakewood, CO, said that her office is understaffed and her employees have huge
workloads. She also said they rely heavily on the ATR. Regarding the missing SF-272s in response to
the receipt of advance funding, Gunning said she did not think that the Accounting Operations Center
(AOC) would process another advance without receiving the proper documentation for a prior
advance.

Since GWS submitted SF-270s that requested advance funding, we interviewed Suzanne Zurybida,
Deputy Manager for AOC, who said that there should be the follow up SF-272s that showed how the
funds were expended. When asked if they were able to provide funding on subsequent modifications if
they did not receive the SF-272, Zurybida said, “Usually, I think we will only give other advance
[funds] one time without having the expenditure reports.”

Zurybida said that the Accounts Payable staff worked on the modifications to the agreement, but the
workload is organized by the various regions. She explained that they have 40 technicians and it
would go to the section that handled the specific region or park responsible for the modification. Since
different employees work on different modifications, she said that they might not be aware that one
modification had not received the requisite SF-272 when advance funds were provided to the
cooperator. She said that these payments would be filed by payment date and not in one file under the
agreement. She said that when NPS transfers to using the Financial and Business Management System
(FBMS), it should be easier to track because there will be electronic invoicing. Zurybida said that in
some cases an invoice can be used as an SF-272. Zurybida pulled the payment files for the GWS
modifications, which showed that AOC did not receive any SF-272s but was using the invoices, which
did not break down the expenditures in any detail.



                                                    3
Harmon said that GWS has submitted a few SF-272s, but that there is no standardized requirement on
when these forms are required. He said that GWS has been requested to submit SF-269s, but after the
fact and it was absent guidance. In contrast, Dekker-Fiala said that GWS has submitted SF-270s
requesting advance funding, but they have never been asked to submit a corresponding SF-272
showing how they spent the funds. She said she did not think they had ever submitted a SF-269, but
recently NPS asked for a document they had never been asked to submit before and Harmon took care
of it.

A review of the subpoenaed file from GWS showed that they, like the NPS file, were lacking in the
proper documentation requirements cited in the cooperative agreement. Further, GWS had SF-30
forms filled out and signed by NPS for each modification. The SF-30 forms are contracting forms that
the contracting officers said were used internally for their system, but that the cooperator should not
receive this form since it was a legally binding document with terms for contracts—not cooperative
agreements.

Conferences

The cooperative agreement was initially for two conferences: (1) an October 2004, 4 day Alaska
symposium focused on Glacier Bay marine and watershed ecosystems and (2) the GWS Biennial
Conference in Philadelphia, PA, from March 14, 2005 through March 18, 2005 for a combined total of
$35,000. (These two tasks were also listed on the Optional Form 347 as modification 1.) The
subsequent modifications to this agreement ranged in subject matter, from supporting training for
Afghanistan cultural resource specialists to a conference on the North American Bison Genetics and
Disease. Several of the activities funded by this agreement had more than one corresponding
modification.

BIENNIAL CONFERENCES

According to the GWS website, every two years GWS organizes and sponsors the “USA’s premier
interdisciplinary conference on protected areas.” The website further states that “[t]ypically, about
60% of the attendees are from the U.S. National Park Service and the conference program reflects this;
in fact, the conference serves as the top-level meeting of NPS cultural and natural resource
professionals.” Modifications 1 and 2 funded the GWS 2005 Biennial Conference for $13,500.
Modifications 5, 7, and 9 funded the GWS 2007 Biennial Conference for a total of $38,800, and
modifications 16 and 17 funded the GWS 2009 Biennial Conference for a total of $20,000.

Regarding the 2005, 2007, and 2009 GWS Biennial Conferences that NPS funded through this
agreement, Harmon said that 50 to 60 percent of the attendance was usually comprised of NPS
employees. He explained that 5 to 10 percent of the attendees were from other federal agencies, and
the rest were individuals from academia and non-governmental organizations (NGOs). Harmon said
that he tells people that this conference is “a de facto high-level Park Service conference, as there are a
lot of Park Service people there.” He further stated that several of the NPS employees that serve on the
GWS Board sit on the conference planning committee and that almost all of them attend the
conference.

Six of the eleven members who serve on the GWS Board of Directors are employed by NPS. A review
of their ethics files showed that they all either claimed their position on the OGE Form 450 as an
outside position or they received a Conflict of Interest Waiver from NPS.

Harmon said, “[W]e have employees of the Park Service who are members of the Board of Directors.
And so they are part of the people who are running this whole organization, the people I answer to, my
bosses.” He said that the Board constitutes a conference committee, which is in charge of the biennial


                                                     4
conference. Harmon further stated that the members of the Board do not have any contact with NPS
with regards to requesting funds. He said, “All those requests for assistance from the Park Service to
help underwrite the conference come from me… And so the Park Service monies that we use, that we
request from the Park Service, could go to any number of things, costs for the conference. A lot of
times they’ll help underwrite, for example, the publication of the Conference Proceedings.”

Agent’s Note: This is contrary to his previous statement that he has never approached NPS to initiate
a modification. Further, documentation for each biennial conference shows Harmon requesting funds
from NPS.

When we interviewed Dennis regarding the biennial conferences, he said, “That’s a major training
opportunity for me, both to receive training and to give training.” He said that approximately 50 to 60
percent of the attendees are NPS employees, and the rest are either from a DOI bureau or academia.
He described the conference as an opportunity to “look at natural, social and cultural activities relating
to resources in parks and related protected areas.” When asked how, if the majority of the attendees
are NPS, it is justified as a public purpose, Dennis said, “[A]s I read one of our authorities, doing
things for the parks is a public purpose. In this case, the Society’s activities are out there for the
public. The information that the Society publishes in its forum and the web material is public…The
Park Service attendees, in generating papers that either get published in the proceedings of the
conferences, or in subsequently publishing those papers in other outlets, is providing information to the
public that responds to the public purpose.” When asked if those papers would have been otherwise
produced had the NPS employees that authored them not attended the conference, Dennis said, “In
some cases they would have. In other cases, they wouldn’t.”

Regarding the program income generated from the conferences, the cooperative agreement states: “To
the extent that conference registration fees and other conference related sources of funds exceed those
total expenses incurred in producing conferences, the excess funds will be used to assist in conducting
activities to accomplish the goals and objectives of this agreement.” Dennis said that the registration
fees to attend the conference is a “couple hundred dollars” per person and that GWS usually ends up
with more money than they spent on the conference. He was unaware of how much money they make
off of the conference since GWS does not report this to him. When asked how he ensures that the
money is used to meet the objectives of the cooperative agreement, Dennis said, “I don’t ask them to
report it, no. Again, we’re assisting [GWS] to get some things done, and so they would abide by those
terms to do things that they do that would assist their program in moving forward.”

We asked Dennis if he had a list of the attendees at each conference, he did not know. When asked if
he had information to support the modifications that specifically went to the attendance of students or
individuals of underrepresented populations, he said, “I do not, no. Again, I’m assisting [GWS] in
doing something the Society wants to do, which benefits the broader public.” Our review of the
cooperative agreement showed that one of the tenets of the statement of work stated: “Identify, with
SERVICE guidance, prospective students and faculty members from minority-based academic
institutions to participate in conferences, workshops, and meetings, and in the production of education
materials. Provide for attendance of these selected students and faculty at the conferences by issuing
waivers to cover costs of registration and seeking other sources of support, such as scholarships.” We
found no evidence of NPS oversight to ensure that the funds were expended properly to support the
attendance of the underrepresented populations.

When asked why there were several modifications dedicated to each biennial conference, Dennis said
that it had to do with the availability of additional funding and GWS coming to NPS with more
minority students that wanted to attend. Dennis, however, said that he did not think he could document
these reasons.



                                                    5
Regarding the same issue, Harmon explained that there were several modifications for each of the
biennial conferences because NPS had additional funds. When asked why GWS needed additional
funding, Harmon said that they had an individual who used to work for NPS, Gillian Bowser, who was
soliciting money from NPS programs to help fund the attendance of students who applied to attend to
the conference.

Regarding program income, Harmon said, “[W]hen the Park Service gives us money for our
conference, the George Wright conference, we were upfront in saying, ‘We need to, quote, “make a
profit” on this conference.’ We can’t lose money on a conference, because otherwise we’re out of
business.” He said that when GWS does their budget for the conference, it may show a profit of
$100,000; however, this does not include Dekker-Fiala’s or his work spent on the conference because
they do not break it down in their billing.

Through document reviews, we found that in 2006 Harmon was paid $34 an hour and Dekker-Fiala
was paid $30 an hour. We also found that for the 2009 Biennial Conference, Harmon was paid $51.10
an hour and Dekker-Fiala was paid $31.40 an hour. He said the change in pay was due to a decision
the Board made that they would not pay for his health insurance, so he has to get it on his own and his
pay was adjusted. He said Dekker-Fiala’s change in pay was due to just a standard raise, because she
gets her health insurance through her husband.

When Walden (the contracting officer) was informed that approximately 60 percent of the attendance
at the GWS Biennial Conferences was NPS personnel, she said she would have questioned the public
purpose had she known the attendance statistics.

WORLD HERITAGE TENTATIVE LIST

According to the World Heritage in the United States of America, The U.S. Tentative List 2008, the
World Heritage List “recognizes the most significant cultural and natural sites on the planet” and the
Tentative List is a national list of eligible properties that could be nominated to the World Heritage
List. As of May 2008, the World Heritage List includes 851 sites from 140 countries, 20 of which are
from the U.S. The Assistant Secretary for Fish and Wildlife and Parks is responsible for the U.S.
nominations to the World Heritage List. Modifications 3, 5, 6, 7, and 10 were to support the creation
of the World Heritage Tentative List for a combined total of $232,000.

Dennis affirmed that Stephen Morris, Chief, Office of International Affairs (OIA), NPS, was the
Government Technical Representative for these modifications. When asked how this venture started,
Dennis said that Morris had an interest in obtaining some cooperative assistance in developing the
Tentative List. Dennis said because of the interests of GWS in world heritage, it was an “obvious
partner.” When asked how this fit into the scope of the cooperative agreement, Dennis said it was
because it dealt with technical materials, which fit within the broader purpose of the agreement of
protecting natural and cultural resources. When asked why there were so many modifications instead
of just one large modification, Dennis said, “I think that the scale of the task grew over time, and it
took longer than had been thought originally.”

Harmon said that NPS’ OIA asked if GWS would help organize a renewal of the previous U.S.
Tentative List that was generated back in the early 1980s. Harmon explained that the work entailed
GWS hiring subcontractors to help organize meetings and to help review and disseminate information
about the process, which they did on the GWS website. When asked how this fit in the scope of the
agreement of conferences, training, and educational materials, Harmon said, “Well, as far as
educational materials go, we produced a portfolio that’s been widely disseminated on the Tentative
List.” He further stated: “But my understanding of the Cooperative Agreement, if you read the base
language in the Agreement, it talks about working together for the benefit of preserving and protecting


                                                   6
cultural and natural resources. And part of the Park Service’s mission is international. And the U.S. is
a signatory to the World Heritage Convention. It’s actually one of the capstone conservation treaties
that are out there, and particularly in protected areas. And so, I think it fits right in there with it.
Because we produce educational materials about it; we published materials about the World Heritage
process on the website.”

When we interviewed Morris, he said that his office became involved with the cooperative agreement
when OIA was looking at revising the World Heritage Tentative List, which would require a
significant amount of work. He explained that OIA is a small office, with only a staff of six
employees. Morris stated that the previous Administration made a commitment to this project. He
explained that GWS was well known throughout NPS, and he was aware of their interest in the world
heritage program because they testified on Capitol Hill in support of the program over the years.
Morris did not know how he was aware that there was already an existing cooperative agreement with
GWS, but thought it was either general knowledge or through one of his colleagues in the Cultural
Resources Program.

Morris explained that the previous Tentative List for the U.S. was completed in 1982 and was
considered out of date. He said that through the modifications to the cooperative agreement that
involved the World Tentative List, GWS contracted with a former NPS employee, who had worked on
the first Tentative List. Morris said that OIA worked very closely with the contractor and that the
project started in August 2005 until they submitted the list in January 2008. Morris said he kept in
touch with Dennis on a regular basis regarding additional modifications needed to support the work on
the Tentative List.

Morris said that his responsibility on the modifications for the Tentative List included reviewing the
work and signing off on the invoices provided by the contractor before GWS paid him. Morris said
that the contractor also provided quarterly reports with his invoices. Morris did not receive any SF-
269 or SF-272 forms from GWS.

AFGHANISTAN TRAINING

Modifications 4, 9, and 15 were to provide 3 archeological site management-training sessions for
Afghanistan cultural resource specialists for a combined total of $396,353. These funds were provided
by the State Department through an interagency agreement.

Dennis stated that Frank McManamon, Chief Archaeologist, NPS, was the Government Technical
Representative for these modifications. Dennis recalled that the State Department had an interest in
assisting the Afghanistan government in protecting their archaeological resources. He said the State
Department came to NPS, since NPS is the responsible organization for archaeological sites in the U.S.
within the park system. Dennis said that GWS was an obvious partner due to their interest in the
protection of natural and cultural resources, both domestic and international. When asked how this fit
within the scope of the agreement, Dennis said, “It fits very well in terms of the training, technical
assistance, developing education materials.” When asked if this scope included supporting other
countries, Dennis said that in this case they were actually supporting the State Department. He further
stated, “In terms of the Society’s interest, it is supporting their interest in the world view of protecting
natural and cultural resources. So I think it fits fine. If I didn’t think it fit under the Cooperative
Agreement, I would not have agreed to submit it as a Modification.”

When asked about the third modification for this training where the funds have been provided to GWS,
but no training has occurred, Dennis said it was due to the current turmoil in Afghanistan and that he
requested a two year extension. Regarding the $165,000 GWS has already received for this
modification, Dennis said, “I assume they’re waiting until they can use it for this purpose.” When


                                                     7
asked if they were collecting interest on this money, he said, “I don’t ask them their details. I would
presume they have it in an interest-bearing account, but I don’t know.”

Regarding GWS’ involvement in this training, Harmon said he thought they became involved in this
based on previous work he had conducted with McManamon. He said that since the training was
funded by the State Department, GWS worked closely with a State Department cultural heritage
representative and NPS. He said that GWS was asked to assist with the logistical aspects of the
training, such as coordinating their complex travel arrangements.

Harmon said that the public benefitted from these modifications “because of the interchange that these
public employees are getting, the different perspective that they’re getting, which I think that they can
bring into their own work, and then convey to the public through the changes that different outlook
brings to their work.” He said that this work built up a “culture of professionalism.”

Regarding the funding that GWS has received but not yet provided training for, Dekker-Fiala informed
us that this money is kept in a CD. Harmon said that Dennis just requested a no-cost extension for this
modification because the current agreement expires at the end of fiscal year 2009.

When we interviewed McManamon, he explained that the State Department had a special emphasis on
assisting the Afghanistan government in caring for its cultural heritage, and that it was a particular
congressional initiative. The State Department asked NPS to participate in a few meetings and over
the course of several months and several discussions, the State Department came up with the idea that
they could offer training to cultural resource professionals from Afghanistan. The State Department
asked if NPS could help and said they would be willing to enter into an interagency agreement to
provide funding for NPS assistance.

McManamon said that he has worked with GWS and was aware of the cooperative agreement and their
involvement in international affairs. McManamon said that he called Harmon directly and asked if this
was something they could help with (McManamon first contacted Dennis, who told him to call
Harmon). McManamon said that he thought he knew there was an agreement with GWS through
Morris, due to OIA’s work with GWS on the World Heritage Tentative List.

McManamon provided a report from the first training they held for the Afghanistan cultural resource
specialists and a draft report of the second training that was held. He said that the funding NPS
provided to GWS through the agreement was all State Department funding that NPS received through
the interagency agreement. McManamon said that GWS received funding for the third training;
however, it has not occurred and he said he did not think the GWS had done anything with the funding
to date. GWS was providing the administrative support for the travel logistics for the Afghanistan
cultural resource specialists and also helped plan the program for the training. McManamon said that
the State Department was also involved and was very satisfied with the outcome of involving GWS.

INTERNATIONAL UNION FOR CONSERVATION OF NATURE

Modification 8 supported the development of the Connectivity Conservation Initiative of the
International Union for Conservation of Nature’s (IUCN) World Commission on Protected Areas for
$10,000. Harmon said that this modification came through OIA. He explained that GWS was a
member of IUCN, and he thought OIA was also a member. He further stated that he was at the time a
“representative on the steering committee for what’s known as the World Commission on Protected
Areas [WCPA]” for IUCN. He explained that IUCN is an NGO based in Switzerland, and individuals
cannot be members but groups like NGOs can be members. He said that the WCPA is a “volunteer
network of people who work on protected area issues around the world, and one of which is called
Connectivity Conservation.”


                                                    8
He further stated that they held a weeklong meeting for WCPA at Yellowstone National Park
(Yellowstone), which he helped organize due to his position on the steering committee. He said that
both GWS and NPS, through OIA, helped to financially support this meeting, and IUCN paid for the
remaining costs.

Agent’s Note: Suzanne Lewis, a member of the GWS Board, is the superintendent at Yellowstone;
there is nothing to suggest, however, that she was involved in this conference for IUCN.

Harmon said that he was both representing GWS as the Executive Director and he was also the Vice
Chair from North America for the WCPA, and he organized the meeting in Yellowstone. He again
affirmed that GWS has not solicited money from NPS for anything. He said there were discussions,
and he was already working with OIA on the Tentative List. He said he spoke to Morris about this
meeting, and Morris asked, “Can we help out in some way?” Harmon said he responded to Morris and
said “Well, it would be nice to have some money to help defray the costs.”

Dennis affirmed that the IUCN Connectivity Conservation Initiative was at Yellowstone. Regarding
this meeting, he said it was “an opportunity to look at some of the international aspects that the Park
Service and [GWS] are both interested in.” Dennis thought this idea was from Morris. When asked if
it was through Harmon, who served as the Vice Chair for the IUCN in North America, Dennis said, “I
mean, anything’s possible.” We asked Dennis if he saw a problem with funding this conference
because of Harmon’s position. He said, “I see this as assisting [GWS] and advancing its purpose
relating to international conservation. So I don’t see a conflict.”

Agent’s Note: Morris stated that he is a member of IUCN and that he attended the meeting in
Yellowstone, but regarding the modification that supported it he said he was aware of it but not
directly involved in it.

OTHER CONFERENCES

Modifications 11, 12, 13, and 14 supported 4 different conferences from the Desert Southwest Climate
Change Science Workshop to the North American Bison Genetics and Disease Meeting, totaling
$58,002. GWS provided the administrative support for these conferences.

Regarding these conferences, Dennis said that they were focused on things other NPS employees were
doing, and they become the ATR for that particular modification. When asked if, specifically for the
Desert Southwest Climate Change Science Workshop, GWS reported back to him, Dennis said, “If
there’s a need for a report. But, again, this was a workshop. They have their own agenda for getting the
workshop done. [GWS] has its agenda for what it wants to do in terms of the workshop.” Harmon
said the role of GWS was to provide administrative and professional support for this conference. He
further stated, “I think the advantage, one reason why organizations ask us to do this kind of work is
because of our familiarity with the subject matter. You can hire, through a contract, a private firm; you
know, there’s millions of them that do event management. But if you’re hiring an organization that
already knows all about protected areas, that knows who the BLM is, that knows all the acronyms, that
knows how the government works, that knows what the restrictions are on what government people
can do and all that, that helps facilitate things more smoothly.” Harmon said that Dekker-Fiala was
more involved than he was on this modification.

When asked how the North American Bison Genetics Disease Meeting fit within the scope of this
agreement, especially since the subject matter is much different than the other modifications, Dennis
said, “First off, this Agreement deals with natural and cultural, the entire spectrum of Park Service
resource responsibilities and interpretation, so education and training. This one is focusing on the


                                                   9
genetics of bison, which is a resource of the Park system, and it’s one that we’re very concerned
about.” Regarding the North American Bison Genetics and Disease Meeting, the Designing the Parks
Conference, and the Cooperative Ecosystems Studies Units network national meeting, Harmon said
that Dekker-Fiala helped coordinate registration and administrative issues for these conferences.

                                            SUBJECT(S)

David Harmon, Director of the George Wright Society
John Dennis, Deputy Chief Scientist, Natural Resource Stewardship & Science
NPS Contracting Office

                                           DISPOSITION

This is being forwarded to the Director of NPS to evaluate the identified problems within the
cooperative agreement monitoring process.




                                                  10
